No. 19-720

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
RILEY BRIONES, JR.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF AUTHORITIES

Cases:

Page

Lawrence v. Chater, 516 U.S. 163 (1996) ............................... 4
Miller v. Alabama, 567 U.S. 460 (2012) ............................ 1, 3
Montgomery v. Louisiana, 136 S. Ct. 718 (2016)................. 7

(I)

In the Supreme Court of the United States
No. 19-720
UNITED STATES OF AMERICA, PETITIONER
v.
RILEY BRIONES, JR.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

In its petition for a writ of certiorari in this case, the
government asked that the petition be held pending this
Court’s decision in Mathena v. Malvo, No. 18-217, a
case concerning the scope of Miller v. Alabama, 567 U.S.
460 (2012), which “h[e]ld that mandatory life without parole for those under the age of 18 at the time of their
crimes violates the Eighth Amendment[].” Id. at 465.
After the filing of the petition in this case, the Court
dismissed the petition for a writ of certiorari in Malvo,
but granted the petition for a writ of certiorari in Jones
v. Mississippi, No. 18-1259 (Mar. 9, 2020), a case that
likewise concerns the scope of Miller, see U.S. Supp.
Letter 1. The specific question presented in Jones bears
even more directly on this case than the question presented in Malvo did. Indeed, the petition for a writ of certiorari in Jones specifically cited the then-precedential
three-judge panel’s decision in this case as evidence of
(1)

2
a conflict of authority on the question that Jones presents. 18-1259 Pet. at 13-14. The correctness of the
court of appeals’ subsequent en banc decision in this
case, which addressed the same issue as the panel’s decision but came out the opposite way, is thus squarely
implicated by this Court’s consideration of Jones. Accordingly, the petition in this case should now be held
pending this Court’s decision in Jones and then be disposed of as appropriate in light of that decision.
1. Following this Court’s decision in Miller, the district court in this case resentenced respondent, as a
matter of discretion, to life imprisonment without parole for a murder that he had committed as a juvenile.
Pet. App. 65a-67a. In doing so, the district court stated
that it had “consider[ed]” respondent’s “youth, immaturity, [and] adolescent brain at the time,” as well as his
record as “a model inmate up to now.” Id. at 65a. The
court also acknowledged that respondent had “improved himself while he’s been in prison.” Id. at 65a66a. The court determined, however, that a life-withoutparole sentence was nevertheless appropriate. Ibid.
The en banc court of appeals vacated respondent’s
discretionary sentence. Pet. App. 1a-16a. The court
took the view that, under Miller, “[i]t is not enough for
sentencing courts to consider a juvenile offender’s age
before imposing life without parole.” Id. at 9a. Rather,
in its view, Miller requires a sentencing court to “determin[e] whether a defendant is permanently incorrigible,” id. at 15a (emphasis omitted), and “the record
must reflect that the court meaningfully engaged in
[that] inquiry,” id. at 16a. The en banc court of appeals
concluded that the record did not reflect that the district court had “meaningfully engaged” in that inquiry
here. Ibid.

3
2. The issue of what the record must reflect for a
juvenile life-without-parole sentence to comport with
Miller is precisely the issue that is before this Court in
Jones. The trial court in Jones sentenced the petitioner
there to life without parole for a murder that he had
committed as a juvenile. 18-1259 Pet. App. at 32a. Similar to the district court in this case, the trial court in
Jones stated that it had “considered each and every factor that is identifiable in the Miller case.” Id. at 70a.
The Mississippi Court of Appeals affirmed, rejecting
the contention that Miller required the sentencing
court to “make a specific ‘finding’ that [the offender] is
irretrievably depraved, irreparably corrupt, or permanently incorrigible.” Id. at 41a. The Mississippi Court
of Appeals explained that, although the sentencing
court had “not specifically discuss[ed] on the record
each and every factor mentioned in” Miller, the sentencing court had “expressly stated that [it] had ‘considered each of the Miller factors,’ ” and its “ruling was
sufficient to explain the reasons for the sentence.” Id.
at 47a.
The question presented in Jones is “[w]hether the
Eighth Amendment requires the sentencing authority
to make a finding that a juvenile is permanently incorrigible before imposing a sentence of life without parole.” 18-1259 Pet. at i. The petitioner in Jones contends
that the answer is yes. See, e.g., id. at 2. The State, in
contrast, contends that Miller requires only that the
sentencing court “take into account how children are
different, and how those differences counsel against
irrevocably sentencing them to a lifetime in prison.”
18-1259 Br. in Opp. at 8 (quoting Miller, 567 U.S. at
480). The State maintains that because the sentencing

4
court in Jones “considered the Miller factors,” the petitioner received the hearing Miller requires. Id. at 7.
If this Court agrees with the State in Jones, then the
en banc court of appeals in this case erred in vacating
respondent’s sentence. Like the sentencing court in
Jones, the district court in this case did not make an explicit finding that respondent is permanently incorrigible. It did, however, state that it had “consider[ed],”
among other factors, respondent’s “youth,” “immaturity,” “adolescent brain at the time,” and post-conviction
record as “a model inmate up to now.” Pet. App. 65a. If
this Court holds that the record in Jones is sufficient to
satisfy Miller, then it would necessarily follow that the
record here is as well, and that the en banc court of appeals’ contrary conclusion was wrong. At a minimum, a
decision in favor of the State in Jones would provide a
basis for the court of appeals to reconsider its resolution
of this case. See Lawrence v. Chater, 516 U.S. 163, 166167 (1996) (per curiam) (discussing Court’s practice of
remanding cases for reconsideration in light of intervening decisions). Accordingly, this Court should hold
the petition for a writ of certiorari in this case pending
its decision in Jones and then dispose of the petition as
appropriate in light of that decision.
3. Respondent nonetheless urges (Br. in Opp. 7-14)
this Court simply to deny certiorari and pretermit further review or reconsideration of the decision below in
light of Jones. Neither of the reasons he proffers for
doing so is sound.
a. First, respondent contends (Br. in Opp. 1) that,
regardless of the outcome in Jones, the decision below
will stand because, in respondent’s view, it rested on a
determination that “the district court failed to even

5
consider evidence of [respondent’s] post-conviction conduct.” The district court, however, did consider such
evidence. Pet. App. 65a-66a. As respondent acknowledges, “the district court expressly noted that [respondent] ‘has improved himself while he’s been in prison.’ ”
Br. in Opp. 9-10 (quoting Pet. App. 6a). The court also
stated that it had “consider[ed]” that respondent has
“been a model inmate up to now.” Pet. App. 65a.
In the en banc court of appeals’ view, the problem
was not that the district court had failed to even consider evidence of respondent’s post-conviction conduct,
but rather that the record did not reveal “whether the
district court [had] appropriately considered [such] evidence” under Miller. Pet. App. 13a (emphasis added).
The en banc court of appeals thus emphasized that “[i]t
is not enough for sentencing courts to consider a juvenile offender’s age before imposing life without parole.”
Id. at 9a. Rather, the en banc court stated, “the record
must reflect that the court meaningfully engaged in
Miller’s central inquiry.” Id. at 16a.
Respondent’s contrary reading of the decision below
rests on a single sentence, taken out of context. See Br.
in Opp. 8. In that sentence, the en banc court of appeals
stated that respondent’s “spotless” post-conviction
prison record “is precisely the sort of evidence of capacity for change that is key to determining whether a defendant is permanently incorrigible, yet the record does
not show that the district court considered it.” Pet. App.
15a (emphasis omitted). Context makes clear, however,
that what the en banc court meant was that the record
did not show that the district court had “fully” considered such evidence in the way that it viewed Miller to
require. Ibid.; see, e.g., id. at 16a (describing purported

6
error as district court’s failure to “meaningfully engage[] in Miller’s central inquiry”). Indeed, that is how
the en banc court described the district court’s purported error just two sentences later: as the failure “to
fully consider [respondent’s] post-incarceration conduct.” Id. at 15a.
Thus, the decision below rested not on a determination that the district court failed to consider evidence
of respondent’s post-conviction conduct at all—which
would have been contrary to the record, see Pet. App. 6a,
65a-66a—but instead on a determination that the record
failed to show that the court had “appropriately considered” such evidence under Miller. Id. at 13a. To the
extent that any ambiguity exists on the precise reasoning of the en banc court of appeals’ decision, and how it
would be affected by a decision in favor of the State in
Jones, that ambiguity would be best addressed by the
court of appeals itself following a remand.
The petitioner in Jones himself expressly views the
issue in this case, which was the same at the panel stage
as at the en banc stage, to be on all fours with the question presented in his case. See 18-1259 Pet. at 13-14.
He even quotes the reasoning of the judge who dissented from the panel opinion in this case as articulating
the rule that he wants this Court to adopt. See id. at 18
(quoting Pet. App. 58a (O’Scannlain, J., concurring in
part and dissenting in part)). And as even that judge recognized, if Miller requires only that “sentencing courts
must consider certain hallmark characteristics of youth
and that they must be permitted to impose a sentence
less than life”—as the State contends in Jones—then
“the district court” in this case “likely would have complied with [Miller’s] dictates.” Pet. App. 52a (O’Scannlain,
J., concurring in part and dissenting in part).

7
b. Second, respondent contends (Br. in Opp. 11-12)
that the petition for a writ of certiorari in this case
should not be held for Jones because the government
took the position below that “Miller applied to discretionary sentences.” As the petition explains, however,
that position was based on statements in Montgomery
v. Louisiana, 136 S. Ct. 718 (2016), that lower courts
and the litigants before them “cannot lightly disregard.” Pet. 8 n.* (citation omitted). “This Court, however, is not so constrained,” and it may “clarify the limits of Miller and Montgomery” in Jones. 18-217 U.S.
Amicus Br. at 22.
In any event, respondent reads the question presented in the petition for a writ of certiorari in this case
too narrowly. That question asks whether Miller “entitles respondent to invalidation of a discretionary lifewithout-parole sentence.” Pet. I. One reason the answer might be no is if Miller does not apply to “discretionary” life-without-parole sentences at all. But that is
not the only possible reason. The answer also might be
no if, for instance, Miller does apply to “discretionary”
life-without-parole sentences, but requires only an opportunity for the sentencing court to consider the juvenile offender’s youth and attendant characteristics.
Thus, even assuming that the government might have
“waived” the specific contention that Miller does not
apply to discretionary life-without-parole sentences at
all, Br. in Opp. 14, it has not waived the argument that
Miller does not entitle respondent to invalidation of his
discretionary life-without-parole sentence. Holding this
petition for Jones is therefore appropriate.

8
* * * * *
For the foregoing reasons and those stated in the
petition for a writ of certiorari and the government’s
supplemental letter of March 10, 2020, the petition
should be held pending this Court’s decision in Jones v.
Mississippi, cert. granted, No. 18-1259 (Mar. 9, 2020),
and then be disposed of as appropriate in light of that
decision.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General

APRIL 2020

